=
I

OCKLE

2311 Douglas Street CA 5 E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B picts contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 20-18

ARTHUR GREGORY LANGE,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE NATIONAL
COLLEGE FOR DUI DEFENSE AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5620 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 11th day of December, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ene] Konse. Looe Ondiaeh Oh le

My Comm. Exp. September 5, 2023
Notary ace. Affiant

 

40393
